■37Z
n (T\ p P H R n.

r•

Case No.
V. *3 t-*

t v v.i '

;i ,.J U V I *')

IN THE SUPREME COURT OF THE UNITED STATES
Supreme O*

l■s

\

APR 2 8 •_.J3

RICHARD LOUIS ARNOLD PHILLIPS

OF'"

Petitioner
vs.
KEVIN R. CHAPPELL, et. al.
Respondent

On petition for a writ of certiorari
To the Ninth Circuit Court ofAppeals

PETITION FOR WRIT OF CERTIORARI

RICHARD L.A. PHILLIPS
filing pro se
C-13707
CSP-SATF
P.O. Box 5242
Corcoran, CA 93212

QUESTION PRESENTED
RICHARD LOUIS ARNOLD PHILLIPS (Phillips), filing pro se,
raises a 'standing' question heretofore unanswered by this Court.
In Heck v- Humphrey, 512 U.S. 477 at 486-487 (1994) this
Court held ,e[a) §1983 plaintiff must prove that the conviction or
sentence has been reversed[.]

(Emphasis added.)
I.

Is a plaintiff 'Heck barred

from seeking §1983 relief, when

his conviction is partially reversed — thus vacating the only
sentence imposed — but part of the conviction remains intact?

i•

LIST OF PARTIES
All parties do not appear in the caption of the case on the
cover page.

A list of all parties to the proceeding in the court

whose judgment is the subject of this petition is as follows:
KEVIN R. CHAPPELL, Warden,
San Quentin State Prison (SQ);
B. EBERT,
Litigation Coordinator, SQ;
SAMUEL ROBINSON,
Correctional Lieutenant, SQ;
J. PEREZ,
Transportation Sergeant, SQ;
CONNIE GIPSON, Warden,
State Prison — Corcoran (SPC);
MARY KIMBRELL,
Litigation Coordinator, SPC;
D• OVERLEY,
Associate Warden, SPC;
KATHLEEN DICKINSON, Director,
California Department of Corrections and Rehabilitation (CDCR);
KELLY HARRINGTON,
Associate Director, CDCR;
VIMAL SINGH,
Associate Director, CDCR,
Defendants•

ii.

TABLE OF CONTENTS
page

Title:

i•

QUESTIONS PRESENTED

ii.

LIST OF PARTIES

(this page)

TABLE OF CONTENTS
TABLE OF AUTHORITIES

iv.

I.

Opinions Below:

1

II.

Jurisdiction:

1

III- Constitutional Provisions Involved:

1

IV.

Introduction and Statement of the Case:

1

V.

Reasons for Granting the Writ:

5

VI.

Conclusion:

7

Certificate of Compliance
Certificate of Service

iii.

TABLE OF AUTHORITIES
page

Case:
Berman v* United States, 302 U.S. 211 (1937)
Bose Corp. v. Consumer's Union of U.S., Inc.,
466 U.S. 485 (1984)
Heck v« Humphrey, 512 U.S. 477 (1994)

3, 5, 7
6
passim

Magwood v. Patterson, 561 U.S. 320 (2010)

6

Phillips v. Chappell, Ninth Cir. No. 18-16790

1

Phillips v. Chappell, USDC No. 17-00875

1

Phillips v. Ornoski, 673 F.3d 1168 (9th Cir. 2012)

1, 3

Wilkinson v. Dotson, 544 U.S. 74 (2005)

5

Wolff v- McDonnell, 418 U.S. 539 (1974)

6

iv.

Case NoIN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
RICHARD LOUIS ARNOLD PHILLIPS (Phillips), filing pro se,
respectfully prays that a writ of certiorari will issue.
I.

OPINIONS BELOW:
The Ninth Circuit's unpublished.opinion in case No. 18-16790

(Phillips v. Chappell, et al.) is attached as Exhibit A.
The Ninth Circuit's denial of rehearing or suggestion for
rehearing en banc is attached as Exhibit B.
The Ninth Circuit reversed the finding of special circum­
stance, thus vacating the only sentence imposed, in Phillips v.
Ornoski
II.

reported at 673 F.3d 1168 (9lfch Cir. 2012).

JURISDICTION:
The Ninth Circuit Court of Appeals denied en banc review on

30 December 2019.

This Court returned Phillips' timely filed

handwritten petition to correct procedural errors, and allow time
to prepare a typewritten petition.

The jurisdiction of this

Court is invoked under 28 U-S.C. §1254 (1).
III. CONSTITUTIONAL PROVISION INVOLVED:
The Fourteenth Amendment of the United States Constitution
provides no citizen may be denied life or liberty, by the U*S.
Government or a state, without due process.
IV.

INTRODUCTION AND STATEMENT OF THE CASE:
In 1980 a Madera County, California jury found Phillips

1.

guilty of all four charged counts*
Count One:

The 07 December 1977 first degree murder of

Bruce Bartulis (Bartulis).

For Count One Phillips received a

sentence of death.
Count Two:

Robbery of Bartulis.

For Count Two Phillips

received a sentence of four years.
Count Three:

The 07 December 1977 attempted first degree

murder of Ronald Rose (Rose),

For Count Three the trial court

imposed the upper term -- Seven years.
Count Four:

Robbery of Rose,

For Count Four Phillips

The above sentences were
1
The
pursuant to the California Penal Code at date of offense,
received a sentence of four years.

sentences for Counts Two, Three and Four are fully served.
Phillips had no other sentence from any court, state or
federal•
In 1985 the California Supreme Court reversed the penalty
phase of the original trial.
On retrial Phillips' motion to proceed pro per/co-counsel
was granted.

The retrial court issued to the Madera County Jail,
2
an Order for pro per provisions.
In 1992 Phillips was again sentenced to death and returned
to California's death row at San Quentin State Prison.
Phillips was subsequently granted his motion to proceed
i

The trial court initially ordered Counts Two, Three and
Four be served consecutively. This is contrary to the applicable
California law and was subsequently corrected to fun concurrent
to Count One.
2
Under California law, once issued an order for pro per
provisions cannot be revoked, except '’for cause."
2.

pro se (with advisory counsel) in his collateral attack of his
conviction and sentence by the United States District Court, then
the Ninth Circuit.

Phillips is the only California death row

prisoner granted permission to proceed pro se in his or her
capital litigation.
In 2005 the Ninth Circuit, under the All Writs Act, granted
Phillips' motion and issued an Order directing the San Quentin
' Prison Warden to provide Phillips a. work area sufficiently large
t

enough for simultaneous access to his 25 boxes of case files.
Phillips was the only California death row inmate with such an
order.

This Order was complied with, but not well received.

In Phillips v. Ornoski

673 F•3d 1168 (9th Cir. 2012), the

court reversed the special circumstance conviction — thus vacating
the sentence of death - voiding the only abstract of judgment
committing Phillips to the custody of the San Quentin Warden.
Grant of collateral relief left Phillips with a partial
conviction only, but no sentence - and therefore no judgment as
3
When the Ninth's mandate issued, the
defined by this Court.
state superior court signed orders directing the San Quentin
Warden release Phillips to representatives of Madera County
Department of Corrections, for housing in Madera jail pending
4
possible retrial of the special circumstance allegation.
’‘Final judgment in a criminal case means sentence, The
sentence is the judgment." (Berman v. United States, 301 U*S«
211 at 212 (1937).)
^ Pursuant to California law applicable to Phillips' case,
had the prosecution elected not to retry the special circumstance
allegation — or if the jury found Phillips not guilty — the trial
court was vested with authority to find, in the interest of
justice, Phillips should be given credit for the years served and
placed on probation instead of returned to prison.
3.

To prevent Phillips from regaining at the Madera County
jail, access to his computer and other tools previously found
necessary for pro per preparation of a defense (see fn. 2 above)
the Warden of San Quentin Prison transferred Phillips to another
California state prison, as a ’'condemned" inmate.

Pursuant to

California regulations the San Quentin Warden must obtain from
the Director of California Department of Corrections authoriza­
tion to rehouse a condemned inmate, prior to the move.

Here, the

San Quentin Warden submitted paperwork to the Director requesting
authorization to rehouse Phillips, asserting Phillips was still
"condemned" despite the sentence of death being vacated; no
judgment for any other sentence, two days after the transfer.
Following exhaustion of administrative review, Phillips
filed for monetary damages under 42 U-S.C. §1983, alleging He is
a partially convicted pre-trial detainee with no sentence and
thus no judgment (and therefore no abstract of judgment from a
trial court committing Phillips to state prison), asserting:
"Defendants, in concert, retaliated
against Phillips for having previously
exercised his First Amendment right to seek
redress from the courts pro se, by, under
false label (condemned) clandestinely trans­
ferring Phillips to more restrictive housing,
with the proximate objective of circumventing
California case law based upon U.S. Supreme
Court law for due process, and with deliberate
intent to restrict Phillips' right to self­
representation on retrial."
The federal district court dismissed Phillips' §1983
complaint as Heck^ barred, holding:
"Plaintiff was found guilty of first
^

Heck v. Humphrey, 512 U.S. 477 (1994).

4.

degree murder, among other crimes and is
serving a life sentence ... He is not a pre­
trial detainee, as he asserts, but a California
prisoner who has been lawfully convicted
and sentenced to life in state prison."
(15 August 2018 Order -- Emphasis added.)
Phillips filed a Rule 59 Motion for Reconsideration based on
the fact the 15 August 2018 Order above is factually incorrect
because no court, state or federal, had ever sentenced Phillips
to "life in prison."

At the date of Phillips' filing for relief

under §1983, he had no prison sentence from any court.
Phillips' Rule 59 motion was denied by the district court,
who held Rule 59 does not lie to correct factual errors.
The Ninth Circuit denied Phillips' appeal and then motion
for reconsideration en banc, upon a finding:
"The district court properly dismissed
Phillips's claim premised on his allegedly
illegal confinement in state prison as barred
by Heck v. Humphrey, 512 U.S. 477 (1994),
because success on this claim would necessarily
demonstrate the invalidity of the duration of
his confinement." See Wilkinson v. Dotson,
544 U.S. 74, 78 (2005) ("|_A] prisoner in state
custody cannot use a § 1983 action to challenge
the fact or duration of his confinement."[] )
(See Exhibit "A" p. 2, herein.)
V.

REASONS FOR GRANTING THE WRIT:
In Heck this Court distinguished between "conviction" and

"sentence."

The implied nexus is this Court's law that without a

sentence there can be no judgement -- thus no prison sentence to
challenge.

The unanswered question raised herein is potentially

applicable to every person receiving partial collateral relief.
This Court held in Berman v. United States, 302 U.S. 211 at
212 (1937):

"Final judgement in a criminal case means sentence.

The sentence is the judgement."

This Court made it clear in
5.

Magwood v. Patterson
suclli as Phillips,

561 U.S. 320 at 322 (2010) that in a case

where a new trial before a new jury is

required, "a "new judgment (through a new trial...) II If will exist.
(Emphasis in original.)
Rule 52(a)(6) of Federal Rules of Civil Procedure vested the
Ninth Circuit with authority to overturn a clearly erroneous
finding by the lower court of the "ultimate facts."
Corn. v. Consumer's Union of U.S., Inc.
(1983):

(See Bose

466 U.S. 485 at 501

"Rule 52(a) applies to findings of fact, including those

described as "ultimate facts," because they may determine the
outcome of litigation.")

The Ninth sidestepped this obligation

with an incorrect interpretation of Heck.
As a partially convicted pre-(re)trial detainee, with no
existing judgment for any crime, Phillips does not dispute the
State has a right to detain Phillips, even without bail if it so
chooses.

Phillips seeks relief of the administrative decision —
0
to falsely maintain Phillips is a condemned inmate with the

objective of interfering with Phillips' access to the court and
the court ordered provisions.

This challenge is analogous to the

administrative decision(s) previously before this Court in Wolff
v. McDonnell, 418 U.S. 539 (1974) wherein this Court held §1983
was the proper forum.
///

0
California Department of Corrections Operations Manual
defines "condemned" as a male or female prisoner under sentence
of death.

6.

VI.

CONCLUSION:
This Court should answer the Question Presented with a

finding that without the existence of a judgment, as defined by
this Court in Berman, there is no sentence to invalidate or
shorten and therefore Heck cannot apply.
Phillips so prays.

/y*jua(A

Dated:

RICHARD LOUIS ARNOLD PHILLIPS
filing pro se

7?.

